              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Audit Report

The Federal Energy Regulatory
Commission's Program to Oversee
Hydroelectric Dams




DOE/IG-0750                         December 2006
                               Department of Energy
                                   Washington, DC 20585

                                   December 18, 2006




MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY


FROM:
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "The Federal Energy Regulatory
                        Commission's Program to Oversee Hydroelectric Dams"

BACKGROUND

Pursuant to the Federal Power Act, the Federal Energy Regulatory Commission (FERC)
regulates certain aspects of non-Federal hydroelectric dams. FERC is required to ensure the
safety, stability. and integrity of these dams with the goal of protecting life, health, and
property from, among other things, instances of sabotage and vandalism. To meet these
requirements, FERC developed its Dam Safety and Security Programs to inspect and review
safety and security efforts for about 2,600 dams. Of this number, over 900 are considered so
significant or high hazard that if breached, loss of life and substantial economic and energy
production disruption could result.

In a prior audit of the Federal Energ!] Regulatory Comnzission's Dam Safety Program
(DOEIIG-0486, October 2000), we observed that improvements were needed in the review and
the processing of internal reports related to the safety of the dams under FERC's jurisdictions.
We conducted the current review to determine whether FERC had resolved previously
identified issues related to its Dam Safety Program and had implemented an effective security
program. Our decision to address this topic again was influenced by the national effort to
enhance security in the post September 11, 2001. environment.

RESULTS OF AUDIT

FERC had made a number of improvements to its Dam Safety Program. We noted, however,
weaknesses in the program related to dam security inspection, analysis and review activities.
In our judgment, these weaknesses adversely impacted the Commission's ability to oversee the
security of dams within its jurisdiction. In particular, FERC had not:

       Captured, or tracked to resolution, needed dam security improvements;

       Ensured that its reviews of the adequacy of dam vulnerability and security assessments
       were documented and subjected to management or quality assurance review; and,

       Adequately documented its performance of security inspections.



                                 @    Printed with soy ink o n recycled paper
Our audit focused on the 900 FERC-regulated dams which had been identified as high or
significant hazard. Thus, our findings related to dam security were of concern.

The problems occurred, at least in part, because FERC had not placed sufficient emphasis on
establishing or enforcing internal controls for its dam security inspection and assessment
activities. In particular, we noted that FERC had not always required that these activities be
documented and the results retained and subjected to management and quality assurance
reviews. Controls were also inadequate to ensure that dam security weaknesses were identified
and tracked to resolution. As a consequence, FERC cannot ensure, nor could we determine,
whether needed improvements in dam security were identified and corrected. Absent essential
program improvements, FERC can not ensure that dam owners are implementing measures to
reduce the vulnerability of intentional or malicious damage to these facilities, and, in so doing,
reduce the risk of loss of life and property and/or potential energy supply disruption.

FERC program officials indicated that efforts were underway to improve the Commission's
ability to document the results of its security regulation activities and to help ensure that
security related vulnerabilities were tracked to resolutjon. These officials also told us that they
intended to take action to reinforce existing requirements for properly completing annual
security checklists. While these are positive steps, additional action is necessary. In that
connection, we made several recommendations desizned to help strengthen the administration
and effectiveness of FERC's security regulation of hydroelectric dams.

As noted previously, in contrast to its security program for hydroelectric dams, we found that
FERC's Dam Safety Program, while still suffering from some processing delays, was relatively
robust. Officials told us that they compensated for delays in the processing of annual safety
inspection reports and reviews of consultant reports by performing preliminary reviews of all
such reports to determine whether there are immediate safety issues. When such issues are
found, FERC indicated that it reprioritizes its staff work loads to concentrate on resolving
them. Our assessment of a sample of overdue inspection reports and reviews of independent
consultant reports demonstrated the efficacy of this approach. Our testing also indicated that
actions were being taken to address recommended corrective actions.

MANAGEMENT REACTION

FERC's comments and planned actions were responsive to our recommendations. Proposed
actions, once completed, should help improve the effectiveness of its dam security regulatory
process. In particular, FERC proposed a number of corrective actions aimed at strengthening
its program such as working with other Federal agencies to determine whether documentation
supporting its regulatory activities can be protected from public disclosure, enhancing data
collection and traclung processes, and providing training. FERC's comments are presented in
their entirety in Appendix 3.

Attachment

cc:
        Executive Director, FERC
        Audit Liaison, FERC
REPORT ON THE FEDERAL ENERGY REGULATORY
COMMISSION'S PROGRAM TO OVERSEE HYDROELECTRIC
DAMS


TABLE OF
CONTENTS


   Security Requlation of Hydroelectric Dams

   Details of Finding ........................................................................................... 1

   Recommendations and Comments .................................................................. 5


   Appendices

   1. Images of Regulated Dams ........................................................................ 7

   2. Objective, Scope, and Methodology .......................................................... 8

   3. Prior Audit Report .................................................................................. 1 0

   4. Management Comments ......................................................................... 11
SECURITY REGULATION OF HYDROELECTRIC DAMS

Security Ins'pection,   Our review revealed opportunities to improve the
Review and Analysis     oversight of security at high and significant hazard dams
                        regulated by The Federal Regulatory Commission (FERC).
                        In particular, we learned that while security-related
                        inspections and analyses were taking place, program officials
                        did not adequately document the results of their activities and
                        could not demonstrate that their work had been subjected to
                        management or quality assurance reviews. Similarly,
                        inspectors and program officials did not specifically identify
                        or track to resolution needed security corrective measures. In
                        contrast, other agencies' review and analyses of security
                        conditions at federally-owned dams were more
                        comprehensive.

                                            Licensee Assessments

                        As part of its overall security program, FERC requires
                        hydroelectric dam licensees to perform vulnerability and
                        security assessments of their facilities. These assessments
                        provide essential information on security weaknesses and
                        potential threats to a facility. They also provide information
                        on the appropriateness and effectiveness of the facility's
                        security system and describe what actions should be taken to
                        address security weaknesses. While FERC officials told us
                        that inspectors routinely performed the required analyses of
                        licensee security and vulnerability assessments, we learned
                        that they did not document the results of their work in this
                        area.

                        Inspectors did not prepare a comprehensive analysis of the
                        adequacy of the licensees' vulnerability and security
                        assessments and did not subject the results of such analysis to
                        management or quality assurance reviews. Although one
                        official told us that FERC's Regional Engineers were briefed
                        regarding findings of significant hazards, documentation was
                        not available to support that assertion. The responsible
                        program official was also unable to provide specifics as to
                        what information was provided during briefings and action
                        taken with regard to individual weaknesses or licensees.
                        FERC officials told us that they do document the results of
                        risk assessments they perform on regulated dams and their
                        critical components. We observed, however, that these
                        assessments also did not always document specifics of
                        security features or their effectiveness and did not address
                        needed corrective measures or vulnerabilities identified by
                        licensees. (See Appendix I for images of regulated dams.)



Page 1                                                          Details of Finding
                              Security Inspections

         Concurrent with the assessment process detailed above,
         FERC is also required to perform annual inspections of all
         high and significant hazard dams within its purview.
         Inspections are performed by civil engineers from FERC's
         five regional offices and cover all aspects of the licensees'
         security program. Inspectors are required to documeilt the
         results of their annual inspections by completiilg a security
         checklist that provides yes, no, or not applicable answers to a
         series of questions regarding protective measures. Once
         completed, inspectors' checklists are to be maintained at
         FERC's regional offices and, consistent with program
         guidance, are not forwarded to Headquarters for review or
         approval.

         Contrary to program guidance, we determined that FERC
         inspectors did not always adequately document the results of
         their security inspections of licensees' dams. Specifically, for
         7 of 65 inspections we sampled, we noted that inspectors did
         not document the results of their work by completing a new
         checklist describing current year conditions. Some of the
         security checklists in our sample also contained vague
         comments such as "fence" and "vandals" that could not be
         traced to specific protective measures or weaknesses, and
         none contained recommendations for correction of
         weaknesses or for upgrades to security. Security program
         management officials told us that they were unaware that
         checklists were not being properly completed. They
         acknowledged that such practice was contrary to existing
         guidance and pledged to take appropriate steps to reinforce
         the importance of properly completing security checklists.

               ldentifvingand Monitoring Security Weaknesses

         Although aware of details regarding security weaknesses,
         FERC also did not capture or adequately detail improvements
         needed at licensee dams. Security program guidance
         indicates that information gathered through inspections and
         analyses of the security and vulnerability assessments
         prepared by dam licensees form the basis for the
         development of specific recommendations to enhance
         security. We learned, however, that those who performed
         inspections and analysis often became aware of but did not
         document needed improvements.




Page 2                                           Details of Finding
                Program officials at Headquarters told us that current
                guidance does not require tracking of security weaknesses.
                and it is their view that licensees would ensure that needed
                corrective actions were taken. However, since FERC did not
                track recommendations to resolution, they were unable to
                determine whether appropriate corrective actions had been
                taken. While they did not identify specific sites or particular
                inspections, in response to our inquiry, inspectors recalled
                that weaknesses identified during assessments and
                inspections related to needed security enhancements in areas
                such as guards, intrusion alarms and motion detectors, and
                increased cyber security.

                             Benchmark Dam Securitv P r o ~ r a m s

                In contrast to FERC's regulation of security for hydroelectric
                dams, other agencies' dam security programs were more
                robust and allowed them better control over corrective
                actions. For example, the Department of Interior, Bureau of
                Reclamation's dam security program, which also requires
                vulnerability assessments at its high and significant hazard
                Federal dams, includes provisions to document the results of
                these assessments; review and approve recommendations to
                ensure that they are adequate, consistent and cost effective;
                and, track corrective actions. Similarly, the U.S. Army Corps
                of Engineers informed us that recommendations made as a
                result of its dam security inspections are binding and
                annotated as a recurring deficiency until the recommended
                security upgrade is implemented. FERC officials indicated
                that they did not believe they should be compared to these
                Federal agencies because those agencies owned their dams
                and did not have to share their security information with
                external agencies.

Control and     These problems occurred. at least in part, because FERC did
Documentation   not place sufficient emphasis on establishing or enforcing
Issues          internal control for its dam security-related inspection and
                assessment activities. In particular, FERC did not always
                require that significant activities be documented, the results
                retained, and subjected to management and quality assurance
                reviews. Controls were also inadequate to ensure that dam
                security weaknesses were identified and tracked to
                resolution. Where documentation controls had been
                established, program officials did not ensure that inspectors
                adhered to existing guidance and had not established
                mechanisms to transport or maintain sensitive information
                related to security vulnerabilities.

Page 3                                                  Details of Finding
                    FERC is required to ensure the security of non-Federal
                    hydroelectric dams; however, its program guidance did not
                    require that inspectors and management officials adequately
                    document the results of its reviews of licensee security and
                    vulnerability assessments or to track weaknesses to
                    resolution. FERC officials told us that it did not require its
                    inspectors to document detailed security information - and
                    was, therefore, unable to track recommendations - because
                    they believed they did not have authority to maintain
                    sensitive critical energy infrastructure information. FERC
                    officials indicated that they initially took this path because
                    licensees were concerned that they would not be able to
                    adequately safeguard their information from public
                    disclosure. Program officials responded to this concern by
                    not accumulating detailed security information on licensees'
                    facilities. While FERC officials told us that they had
                    consulted with Department of Energy officials regarding
                    establishing a facility to securely store such data, we noted
                    that such a facility was not in place as of October 2006 and
                    little progress had been made in accumulating supporting
                    information since the program was initiated in July 2002.

                    Problems with the proper completion of annual security
                    checklists could also be associated with FERC's policy of not
                    maintaining what it believed to be critical
                    infrastructure-related data. Because of this policy, checklists
                    were not forwarded to Headquarters for management review
                    and were not subject to any other quality assurance or review
                    procedures. Although program guidance requires inspectors
                    to discuss the results of their efforts with FERC Regional
                    Engineers located at various field offices, the guidance does
                    not specifically require that inspection checklists be approved
                    by those officials.

Dam Security Risk   The increased risk to the public arising from the
                    consequences of attacks against the nation's energy
                    infrastructure, which include hydroelectric dams, is a
                    prominent concern today. The destruction from an attack on
                    a hydroelectric dam could be significant considering the
                    Department of Homeland Security's conclusion that a dam
                    has the potential to be used as a weapon of mass destruction.
                    Many individual features of a dam as well as the dam
                    structure itself could be vulnerable to threats and/or attack
                    scenarios that could result in adverse consequences such as
                    great economic losses to water supplies and energy
                    production, severe downstream environmental damage, and



Page 4                                                      Details of Finding
                  loss of human life. Therefore. documented analysis and
                  management review of dam security conditions is, in our
                  opinion. essential to ensuring that the inspectors' analyses are
                  sound and that all of the reviewed facilities' security
                  deficiencies are being adequately addressed. Absent an
                  effective security program with improvements in processes
                  for collecting and analyses of detailed security information
                  and tracking remedial actions, FERC cannot ensure that it
                  will meet its mandate to facilitate the protection of life, health
                  and property from instances of sabotage and vandalism at
                  non-Federal hydroelectric dams.


RECOMMENDATlONS   We recommend that the Chairman, Federal Energy
                  Regulatory Commission, require the Director, Office of
                  Energy Projects, to ensure that the Division of Dam Safety
                  and Inspection:
                      1. Revises the Security Program for Hydropower
                         Projects guidance to include requirements to:
                              a. document its analysis and perform
                                 management and quality assurance review of
                                 the detailed results of licensees' vulnerability
                                 and security assessments, and ensure the
                                 adequacy of recommended security upgrades
                                 for high and significant hazard dams;
                              b. track recommended security upgrades
                                 resulting from annual inspections and
                                 vulnerability and security assessments and
                                 ensure that they are properly implemented;
                                 and,
                      2. Reinforces requirements for regional office inspectors
                         to prepare complete security checklists following
                         each annual inspection and document their results
                         with clear and understandable entries.


MANAGEMENT        The Chairman, Federal Energy Regulatory Commission,
REACTION          agreed with the report's finding and recommendations and
                  offered several proposed corrective actions aimed at
                  strengthening its Security Program for Hydropower Projects.
                  For instance, FERC will coordinate with other Federal
                  agencies in its efforts to determine whether unclassified
                  sensitive data contained in licensee vulnerability assessments




Page 5                                 Recommendations and Comments
           can be protected from disclosure under the Freedom of
           Information Act (FOIA). Also, FERC will begin collecting
           and documenting all security changes made at its high and
           significant hazard dams since September 1 1, 2001, using
           licensee documents. Further, in order to track recommended
           security upgrades resulting from annual inspections and
           vulnerability and security assessments, FERC plans to collect
           additional security information in its Dams Database and will
           require that security checklists be sent to Headquarters for
           monitoring. Before the end of the year, FERC also plans to
           provide training to its inspectors to teach them to document
           the results of security inspections in detail.


AUDITOR    FERC's comments to the draft report were generally
COMMENTS   responsive to our recommendations and its planned actions
           should improve the effectiveness of its Security Program for
           Hydropower Projects once they are completed. We
           acknowledge the challenges that FERC faces with protecting
           sensitive critical infrastructure information from public
           disclosure through FOIA. However, we believe that FERC
           should proactively pursue strategies and establish a
           timeframe for implementing remedial actions relative to the
           protection of such information. Once this issue is resolved,
           FERC can improve its documentation, analysis and
           management review of licensee vulnerability assessments
           and enhance its ability to ensure the adequacy of
           recommended security upgrades.




Page 6                                                  Comments
Appendix I

                      IMAGES OF REGULATED DAMS




Midwest Gravity Dam               Northwest Embankment Dam




Northeast Gravity Dam             Northwest Gravity Dam




Northwest Embankment Dam          Southeast Gravity Dam




Page 7                                      Images of Regulated Dams
Appendix 2


OBJECTIVE     To determine whether The Federal Energy Regulatory
              Commission had resolved issues related to its Dam Safety
              Program and implemented an effective security program
              over high and significant hazard dams.


SCOPE         This audit was performed between December 2005 and
              April 2006 at the Federal Energy Regulatory Commission
              in Washington, DC, and the Chicago Regional Office,
              Chicago, Illinois.


METHODOLOGY   To accomplish the audit, we:

                     Obtained and reviewed applicable laws, regulations,
                     policies and procedures;

                     Interviewed officials at FERC Headquarters and the
                     Chicago Regional Office to obtain background
                     information, determine roles and responsibilities,
                     and to clarify issues;

                     Randomly selected 65 dams under Chicago
                     Regional Office jurisdiction to ensure that annual
                     safety inspection reports were prepared and 5-year
                     independent consultant reports were reviewed
                     between Fiscal Years (FY) 2003 through 2005 and
                     annual security inspections were performed during
                     FY 2005;

                     Reviewed implementation of the Security Program
                     for Hydropower Projects at one significant hazard
                     dam under Chicago Regional Office jurisdiction;

                     Reviewed the Bureau of Reclamation's Security
                     Program and held discussions with the Corps of
                     Engineers to gain an overview of their dam security
                     program; and,

                     Reviewed the Department of Homeland Security's
                     National Infrastructure Protection Plan and Sector-
                     Specific Plan for Dams.




Page 8                          Objective, Scope, and Methodology
Appendix 2 (continued)


                    The audit was performed in accordance with generally
                    accepted Government auditing standards for performance
                    audits and included tests of internal controls and
                    compliance with laws and regulations to the extent
                    necessary to satisfy the audit objective. We considered the
                    establishment of performance measures in accordance with
                    the Government Pe?$ormunce and Results Act of 1993 as
                    they related to the audit objective. We noted -thatin
                    FY 2004, FERC had established a performance measure to
                    update its Security Program for Hydropower Projects, but
                    reported that no security program changes had been made.
                    Because our review was limited, it would not necessarily
                    have disclosed all internal control deficiencies that may
                    have existed at the time of our audit. We did not rely on
                    computer-generated information to accomplish our audit
                    objective. An exit conference was waived.




Page 9                                Objective, Scope, and Methodology
Appendix 3


                             PRIOR AUDIT REPORT


     Federal Energy Regulatory Commission's Dam Safety Program (IG-0486,
     October 2000). The audit disclosed that The Federal Energy Regulatory
     Commission had not comprehensively reviewed over 70 independent consultant
     reports and had not prepared final reports of more than 300 internal inspections.
     Auditors concluded that delays in documenting results of internal inspections
     increased the risk that some details of the inspection could be lost or inaccurate
     and deprived the public of dam safety information. More importantly, historical
     information needed to develop trend analysis to identify and correct dam safety
     problems was not publicly available.




Page 10                                                            Prior Audit Report
Appendix 4


                                    FEDERAL ENERGY REGUL.&TURY COMMlSSlON
                                                  I V A S h l N G 7 0 r \ J DC iC:7r:




                                                      OCT 1 3 _::'I;

      Mr. Rickc.!, R . Has?
      A.;s~sranrIrlspccl.or (<enera1l'or Fii~ancirtl.T,-clinolo~y.
              and C:orporate Audits
       ~ O C ) J_in();'1  ~I               (lG34)
      T)ep:1rtnlcrlt of Enc1.g).
       1000 Tndepzlldence Ave.. S.W.
        .: L.. .:; ~ , ;~ ~ ,~ ~ ..-.
      >* ,
          9
              ,'    y.         01   0   1.-, ,..-
                                 _ ; L bIi /: L
                                              .
                                                   ,-:-
                                                  -\1~03




             Thank you for submitting thc draft report of rhe LIOE IG audit of the 1-IJRC Dam
      Safety Program dated Seprcmbcr 15: 2006. Wz have re\*ie\vscithe draft rcport and w e
      agree \villi the suhslance of ils conclusions and thc appropri:iteness of the
      rccnillrn~:~~Jatio~is.

             'T'he rcconimencln~io~is \.OLI
                                          nlade are summarized belou, and we 0fi.r the follnwing
                                   .  .
      PI-opos::ls 10 address thi. h~ghlightcdrccoinmendations of the draft report.

      !I .ai Revi-;e ruidancc to ir~ciudcrequirenlents for doc urn en tin^ its analvsi; and
      rnauazelncnt arid qu:llitv assurance re\ iew of thc detailed results of 1icensci.s'
      v~~lnc.rabilit\.assessments. arid ensu_dr_lgjhcadeq uacv of recornrrler~dedsecul-it!, upgrades
      anlon.\r high and sinni ficanr hntard !potential! dams

                   The FERC is de~elopingan additional daia rec!uiremeiit to collect and document at
                   ?\.er\-inspectron all sccurit~.changes (physical and pl-ocedural)rnadc at each His11
                   and Si~nificanttlazard Potential prqjcct since 9illlOl and in ~ 1 suhscquent
                                                                                      1          ?cars
                   based on the 1.csulrs o i thc detailed 1,icensee's reports.

                   Bused 011 our untierstandin~.sensitive' hur unclassified documents cannot be
                   nl~solutelyprotected. thus lcading to irlcrtlased sszurity I-isks at our jurisdictional
                   projects if t11c FERC were to require thcis subnlission. In coordination with the
                   otbrcr l'edcrul agencies. \i:e will continue to i n ~ e s ~ i g awnethcr
                                                                                    tf      unclassified bur
                   s~iisilivcmatsrinl cal; he prolzctecl from disclnsurc ~ ~ n d current
                                                                                       er     FOIA
                   rcylations.




page 11                                                                                 Management Comments
Appendix 4 (continued)




          a   FEKC reccivcd classification authorit). for rlational sccurity information through
              DOE in July 3006. We a-u-eevaluating how this authority will be ~ ~ s in e dthe dain
              safety program. In addition, FERC is working with DOE to fiinalize the
              accreditation for the exclusion area in FCKC. and specifically to develop a training
              program for classificatjon authorities.

      [ 1.b) 'l'rackinc, rrecc)mrnended sccuritv upzrades resultinrr from annual inspections and
      \,ulncrabilit\ :~ndsecurity assessments,   3rd   ensurinz that thcv are propel-1) ~mplemented

              'Ihe FERC will moclify the Dams Database to includc ficlds for the following
              items in order to track work i~~c~lllplish~llent:

                            Acceptance and appropriateness of securi~yand risk self-assessments
                            Acccptancc of security plans and procedures
                            Improvemen~smade to security post 911 1 and since last inspection
                            Verify that the results for each High and Sigr~ificarltHazard Potential
                            project have beell reviewed by upper management
                            Verify that the security inspection at each High and Signjfjcant
                            Hazard P o t e ~ ~ ~project
                                                 i a l is adequate
                    'm      A negative response to any data field will require a schedule lor
                            complctiorl and confim~ationthat the schedule has been nlet
                            (tracking of work accomplishment)

      ( 7 ) Kci~lforcerequirc~ncntsfor rceional office inspectors to prepare complete securitv
      checkhsts follow~nzcach annual insnection and document results with clear and
      unde~.standahlccntrics

              In additiorl to the ncw data requireilie~ltdiscussed above. the annual security
              checklist will be sent to HQ. retained in our new secure room, and will be used to
              monitor program accomplishment and I-iskreduciion measures. A staff uainillg
              effort will be completed before the cnd of Lhe year in which our inspectors will be
              instructed to fill out the resulls of the security inspectiolis in greater detail.

              We appreciate the efforts taken by the audit team to review our program and
      providc recornmcndations for its improvement. Altl~oughthe FERC is in agreement with
      observations made by the auditing teatn, there is one point of clarification, we would like
      to briefly adclrcss. The audit report stales that the FERC had "sufficient timc" to establish
      necessary (doc~unem)protective measures. In fact the entire Federal Government has
      bcen challenged by the right to public disclosure and need for not releasing security




Page 12                                                            Management Comments
Appendix 4 (continued)



                                                           ?
                                                            >
          :-clatci] inlormation and has yct to f i r ~ da solutio~l.Wi: have heell working diligent]! ta
          rind lawfully auzcptahlc ways ti) ttxempr submitted d o c ~ u n e n t(rum ~ FOIA rccli~irements.
          It is our understanding that an unclassified document cnnrlot be absolutely protected fro111
          uon-ilisciusure in a FOIA requesl unlcss it nlccrs thc specific cxcmptions ot'FO1.A. These
          s c . ~ u ~ - idocuments
                         ly         \\icbuld I I O ~mczt the txcmption requirerncnts. Bccausc of this cnncern.
          :it tins time. the i-isks 10 our energy production woulci bc greater if the FERC !\!ere to
          ~ C ' C C P Iscnsi~iiiedocuments. I.;ndcl-standing thc value uf having :tdcqualc records and
          documentation, we will continue to address this issue allti develop ways to secure
          $ensitivc s c c ~ ~ r iinformation
                                  ty              frorn disclosure.




Page 13                                                                    Management Comments
                                                             IG Report No. DOEIIG-0750

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page



  Your comments would be appreciated and can be provided on the Customer Response Form.
